June 17, 2008

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Management Advisory – Location of Southeast Area Office Space
         (Report Number SA-MA-08-002)

This report presents the results of our review of the location of Southeast Area office
space (Project Number 08YG020SA000). The report responds to a request from the
Southeast Area Vice President to determine whether there are other locations within the
Southeast Area that would be more appropriate for the Southeast Area office. Click
here to go to Appendix A for additional information about this audit.

Conclusion

We determined the U.S. Postal Service may benefit from the Southeast Area office
being located at other locations within the area they serve. We reviewed transportation
and logistics, labor availability, labor, and real estate costs in assessing the location of
the Southeast Area office.1

The Southeast Area Office May Benefit from a More Optimal Location

The Southeast Area was developed when the former Postal Service regions were
discontinued in the early 1990s and officials, at that time, chose to stay in Memphis,
Tennessee. The office was originally centrally located within the Southern Region,
which included all of what is now the Southeast Area, the Southwest Area (with the
exception of New Mexico), and a portion of South Carolina. The reorganization of the
regions into areas resulted in the Southeast Area office being located at the far western
border of its current area of responsibility and approximately 1,100 miles from its
southernmost area of responsibility.

The Postal Service does not have specific policies or procedures it considers when
determining the optimal location for area or administrative offices. As a result, the area
office remains in a facility that is not located in the center of the area’s subordinate
district offices and processing and distribution centers.
1
 These are three of the four factors considered in a study conducted by the Government Accountability Office (GAO)
and used in a prior Decision Analysis Report (DAR) prepared by the Postal Service.
Location of Southeast Area Office Space                                          SA-MA-08-002



We reviewed a GAO report which identified four important factors to consider when
determining the optimal location for administrative offices. Those factors include:
transportation and logistics, labor availability, labor and real estate costs, and business
climate and incentives. We also reviewed a DAR from two previous area office
relocations and found that those areas considered transportation and logistics, labor
availability, and real estate cost in choosing optimal site locations, but not labor costs or
business climate and incentives. Our initial review and evaluation of Memphis and
other locations within the Southeast Area revealed that, based on the aforementioned
criteria, the Southeast Area office space may not be located in the optimal location. As
a result, the Postal Service may be incurring additional and unnecessary transportation,
labor, and real estate costs.

Click here to go to Appendix B for our detailed analysis of this issue.

We recommend the Vice President, Facilities:

1. Revise current policies and procedures concerning the determination of optimal
   facility location, to specifically include area and administrative office space.

Management’s Comments

Management agreed with the recommendation and stated they will review their internal
procedures and make sure policies are adequate to address the optimal facility location
when dealing with area or administrative office space. In subsequent correspondence,
Facilities stated their review of internal procedures should be completed by October 1,
2008. Management’s comments, in their entirety, are included in Appendix D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management's
comments responsive to the recommendation and the actions taken should resolve the
issue identified in the report.

We recommend the Vice President, Facilities, in coordination with the Vice President,
Southeast Area Operations:

2. Conduct a detailed analysis to determine the optimal location for the Southeast Area
   office based on the policies, procedures, and criteria that are developed.




                                              2
Location of Southeast Area Office Space                                      SA-MA-08-002



Management’s Comments

Management agreed with the recommendation and stated they will continue to work in
coordination with the Vice President, Southeast Area Operations, to conduct a detailed
analysis to determine the optimal location for the Southeast Area office in conjunction
with their review of Postal Service policies and procedures. In subsequent
correspondence, Facilities stated that the Southeast Area and the Southeast Facilities
Service Office began work in March 2008 to determine the optimal office location.
However, they stated that due to the nature of this type of work, it is difficult to
determine a specific time period for completion.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the actions taken should resolve the issue identified in the report.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the follow-
up tracking system until the OIG provides written confirmation that the recommendation
can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.

 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Katherine S. Banks




                                           3
Location of Southeast Area Office Space                                         SA-MA-08-002



                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Southern Region encompassed all of what is now the Southeast Area and the
Southwest Area (with the exception of New Mexico), and a portion of South Carolina.
The Southern Region DAR, dated May 24, 1991, states that the selected location at the
Eaglecrest Building, 225 North Humphreys Boulevard, Memphis, Tennessee was ". . .
within one and a half miles of the center of the postal population it will serve."

When the regions were reorganized into areas in the early 1990s, the Southeast Area
office remained at the Eaglecrest Building in Memphis, Tennessee. This facility is now
located at the westernmost border of its current area of responsibility and approximately
1,100 miles from its southernmost area of responsibility.

Publication 191, Investment Policies and Procedures, dated September 1989, was the
document in place that governed investment activities at the time the DAR was written
and approved. It was the precursor document to the F-66 Handbook series and is silent
on where to locate facilities. Section 442 does state: “A planning parameters meeting
must be held in the planning cycle for major facility projects. Planning parameters
define the problem, and identify possible viable solutions to it.” One of the items on the
meeting agenda was to consider the preferred area where the proposed facility was to
be located.

Publication 191, Section 531.2, Backup Materials, contains a list of all documents that
were required in the DAR backup package. There was no requirement to include the
planning parameters meeting minutes, or any other documents related to that meeting
in the backup. Accordingly, the backup documentation for the Southern Region DAR
did not include information resulting from a planning parameters meeting.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the review was to determine whether there are other locations within
the Southeast Area that would be more appropriate for the Southeast Area office. We
reviewed Postal Service and private industry policies and procedures for selecting the
location of administrative offices. The specific criteria we reviewed as it relates to the
Southeast Area are transportation and logistics, labor availability, and labor and real
estate costs. Our audit scope included metropolitan areas within the Southeast Area
geographic boundaries.

To accomplish our objective, we reviewed a study the GAO conducted and prior area
office DARs. We also conducted research through the Bureau of Labor Statistics and
examined other material deemed necessary to accomplish our objective.




                                             4
Location of Southeast Area Office Space                                       SA-MA-08-002



We conducted this review from March through June 2008 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management officials on April 29,
2008, and have included their comments where appropriate.

PRIOR AUDIT COVERAGE

Our review of the U.S. Postal Service Office of Inspector General’s prior audits did not
identify any audits or reviews specifically related to the audit objective within the past
3 years. However, we did identify a GAO report directly related to the location of federal
facilities.

                REPORT TITLE                        REPORT NUMBER       REPORT DATE

                                          GAO Report
Facilities Location: Agencies Should Pay More
                                                       GAO-01-805          July 2001
Attention to Costs and Rural Development Act




                                                5
Location of Southeast Area Office Space                                                                 SA-MA-08-002



                                 APPENDIX B: DETAILED ANALYSIS

The Southeast Area Office May Benefit from a More Optimal Location

The GAO report titled Facilities Location: Agencies Should Pay More Attention to Costs
and Rural Development Act, dated July 2001, found the private sector identified the
following as main areas of consideration when deciding on the location of facilities:

    •    Transportation and logistics2
    •    Labor availability and cost
    •    Real estate costs
    •    Business climate and business incentives

Labor availability was an area of consideration important in the relocation of the Pacific
Area office from South San Francisco, California to San Diego, California. According to
the DAR, the primary reason for the relocation of the area office was the inability to
recruit individuals to fill Postal Career Executive Service (PCES) and Executive and
Administrative Schedule (EAS) positions. In 2002, the Pacific Area identified recruiting
as a critical concern. Of the 74 employees housed in the Oyster Pointe location, 40
percent were eligible to retire by the end of 2003. High cost of living in the area resulted
in rejections of possible executive promotions. The relocation required a capital
investment of approximately $2 million and resulted in rental savings of approximately
$6.96 million over 10 years. It also placed them into a postal-owned facility that is more
centrally located to their subordinate operations.

Transportation and logistics was an area of consideration important in the relocation of
the Great Lakes Area office to the current Bloomingdale, Illinois, location in 1996.
According to the DAR, the primary reason for relocation of the area office was the need
to consolidate area administrative operations from three separate locations to a single
facility. The preferred area was established by the Area Vice President after
considering the need to be accessible to subordinate district offices and processing and
distribution centers and to provide access to an excellent transportation infrastructure.

Review of the decision-making criteria employed by private industry and federal
agencies, as it relates to the location of the Southeast Area office, revealed that labor
availability (as measured by unemployment rate)3 is comparable throughout the
metropolitan areas of the Southeast. Although costs for management type labor,4 as
found in an area office, vary significantly, Memphis, Tennessee, labor costs
approximate the average throughout the Southeast Area. Of the 10 metropolitan areas
2
  When asked to rate the importance of transportation and logistics, 17 of the 52 respondents in the consultant’s
survey gave it the highest rating for headquarters offices and over one-half gave it the highest rating for satellite
(field) offices. Transportation factors were also important to the public sector. In the GAO’s survey of federal agency
sites, 40 percent of the respondents said access to transportation (such as airports, trains, and highways) was an
important factor in their location decisions.
3
  See Appendix C, Labor Availability table.
4
  See Appendix C, Labor Cost table.




                                                           6
Location of Southeast Area Office Space                                      SA-MA-08-002



studied, we found that the Memphis International airport had fewer commercial flights in
2006 than did five other airports within the Southeast Area, but more flights than four
other airports.5

Based upon precedent set by the Pacific and Great Lakes Area office relocations,
Southeast Area travel data, and the GAO’s identification of the four main areas of
consideration in the choice of office location, we determined the Southeast Area office
may not be optimally located within the area.




5
    See Appendix C, Flight Statistics.




                                            7
Location of Southeast Area Office Space                                           SA-MA-08-002



                          APPENDIX C: SOUTHEAST AREA DATA

                                           Labor Availability


                            State         City                Unemployment
                                                              Year   Rate
                            TN            Memphis             2007    4.6
                            TN            Nashville           2007    4.6
                            GA            Augusta             2007    4.3
                            GA            Atlanta             2007    4.3
                                          Tattnall
                            GA            County/Savannah     2007       4.3
                            FL            Orlando             2007       4.1
                            FL            Ft. Lauderdale      2007       4.1
                            FL            Miami               2007       4.1
                            AL            Birmingham          2007       4.0
                            AL            Huntsville          2007       4.0
                            USA                               2007       4.6

                                    (Bureau of Labor Statistics data)

                                                 Labor Cost

                                                             Bureau      Office
                                                            of Labor     Worker
                                                            Statistics   Hourly
                                                              Data        Rate
                          State       City                    Year         ($)
                                      Tattnall
                          GA          County/Savannah         2007        21.30
                          FL          Orlando                 2007        27.20
                          AL          Birmingham              2007        28.07
                          TN          Memphis                 2007        29.25
                          FL          Miami                   2007        30.13
                          FL          Ft. Lauderdale          2007        30.13
                          GA          Atlanta                 2007        32.26
                          TN          Nashville               2006        32.47
                          AL          Huntsville              2007        32.48
                          GA          Augusta                 2007        38.87
                          Average                                         30.36

                                    (Bureau of Labor Statistics data)




                                                     8
Location of Southeast Area Office Space                                                   SA-MA-08-002




                                            Flight Statistics

                                                                                  Commercial
                                                                                  Flights per
           State          City                Airport Name            Data Year       Year
                                     Hartsfield Jackson Atlanta
          GA         Atlanta         International                      2006          672,188
          FL         Miami           Miami International Airport        2006          295,946
          FL         Orlando         Orlando International              2006          281,984
                     Ft.             Ft. Lauderdale/Hollywood
          FL         Lauderdale      International Airport              2006          184,800
          TN         Nashville       Nashville International            2006           99,229
          TN         Memphis         Memphis International              2006           82,437
          AL         Birmingham      Birmingham International           2006           32,266
                     Tattnall
          GA         County          Savannah                           2006           14,410
                                     Huntsville International
          AL         Huntsville      Airport                            2006            6,669
          GA         Augusta         Augusta Regional                   2006            3,176

                                          (Airnav.com airport data)




                                                     9
Location of Southeast Area Office Space                    SA-MA-08-002



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                          10
